Audit of USAID/Indonesia’s Democracy and
Governance Program


Audit Report No. 5-497-01-004-P

September 14, 2001




         Regional Inspector General/Manila
U.S. Agency for
INTERNATIONAL
DEVELOPMENT

RIG/Manila

September 14, 2001

MEMORANDUM

FOR:          Director, USAID/Indonesia, Desaix B. Myers III

FROM:         Acting RIG/Manila, Darren Roman /s/

SUBJECT: Audit of USAID/Indonesia's Democracy and Governance
         Program (Report No. 5-497-01-004-P)

This is our final report on the subject audit. We reviewed your comments to the draft report, made
some revisions based on them, and included the comments in their entirety as Appendix II.

The report contains two recommendations addressed to USAID/Indonesia. Based on the Mission's
comments, a management decision has been reached on all report recommendations--with
Recommendation Nos. 1.3, 2.1 and 2.2 considered closed upon issuance of this report.
Recommendation Nos. 1. 1 and 1.2 may be closed when the Mission provides evidence to USAID's
Office of Management Planning and Innovation that it has implemented the necessary actions.

We appreciate the cooperation and courtesy extended to the staff during the audit.




                                                                                                1
Table of   Summary of Results                                              3
Contents   Background                                                      3

           Audit Objectives                                                4

           Audit Findings                                                  5

                  What is the current objective and status of
                  USAID/Indonesia’s democracy program?                     5

                         Mission Needs to Sign New Special Objective
                         Agreement with the Government of Indonesia        6

                  Has USAID/Indonesia expended funds on its democracy
                  program and monitored those expenditures in accordance
                  with U.S. Government, Agency and program objectives
                  and guidelines?                                           9

                         Statutory Clause Should Be Cited
                         in Mission Agreements                             10

                         Concerns Over the Ability to
                         Monitor Democracy and Governance
                         Activities in High-Risk Areas                     11

           Management Comments and Our Evaluation                          14

           Appendix I - Scope and Methodology                              15

           Appendix II - Management Comments                               17

           Appendix III – Copy of SOAG                                     20

           Appendix IV – Copy of SOAG Implementation Letter No. 1          33




                                                                                2
Summary of   Three of USAID/Indonesia’s seven strategic objectives concern its democracy and
Results      governance (DG) program. The audit found that USAID/Indonesia has generally
             expended funds on its DG program and monitored expenditures in accordance
             with U.S. Government, Agency and program objectives and guidelines.
             However, as discussed below, we found three areas needing Mission attention.
             (See pages 5 and 9.)

             First, USAID/Indonesia needs to sign a new Special Objective Agreement (SOAG)
             with the Government of Indonesia (GOI) in order to help set and meet its DG
             program strategic objectives. The lack of a new agreement has in some cases
             contributed to operational problems—and to at least $233,000 in additional costs to
             implement the program. Mission officials are aware of the need to enter into a new
             agreement with the GOI and stated that they have been exploring ways to do so.
             We recommend that the Mission develop a strategy, with target dates, for
             contacting the appropriate parties within the host government to help set and meet
             its DG strategic objectives under a new SOAG. The Mission should also attempt to
             recover tax and duties paid to the GOI. (See pages 6 to 9.)

             Second, USAID/Indonesia does not include reference to Section 116(e) of the
             Foreign Assistance Act of 1961, as amended, in its DG agreements. Section
             116(e) prohibits USAID funding from being used to influence the outcome of
             any election in any country. USAID/Indonesia has not widely disseminated
             information on this requirement because most Mission officials were not aware
             of it. We recommend that the Mission include this statutory requirement in
             applicable agreements. (See pages 10 to 11.)

             And third, USAID/Indonesia has, as part of its DG program, attempted to help
             resolve conflicts and crises in high-risk areas (“hot spots”) because Indonesia’s
             capacity in the area of conflict resolution is limited. However, during the audit we
             became aware of certain instances where security concerns have prevented
             responsible organizations from monitoring program activities in such areas. While
             we are not making a formal recommendation at this time, we suggest that the
             Mission and its partners develop contingency plans for monitoring in difficult
             situations. (See pages 11 to 13.)


Background   In May 1998, the resignation of Indonesian President Suharto dramatically
             changed the Indonesian political landscape. Indonesia held its first free and fair
             general parliamentary elections in June 1999. In October 1999 the Indonesian
             Parliament named Abdurrahman Wahid as President and Megawati Sukarnoputri
             as Vice President of Indonesia. The Government set as its priorities: rooting out
             corruption, encouraging the return of international investment, opening the
             economical and political environment, combating health problems and
             malnutrition, and conserving biodiversity.


                                                                                             3
                     Per USAID/Indonesia’s Country Strategy Paper of May 30, 2000, Indonesia is
                     now in the midst of multiple transitions, constructing new political and economic
                     systems and reconstructing social relationships to ensure greater equity across
                     regions and between classes. People are asserting their rights. For example,
                     concerns over corruption and judicial acts are receiving heightened attention.
                     Political and fiscal power is being dispersed to sub-national units of government,
                     to districts and to cities. However, political turmoil persists as evidenced by the
                     impeachment and removal of President Wahid in July 2001, and the installation
                     of Megawati Sukarnoputri as the new President.

                     In this context, the U.S. Government has established two foreign policy goals:
                     the institutionalization of democracy and the resumption of economic growth.
                     The U.S. Government is also committed to the preservation of territorial integrity
                     and the unity of Indonesia. The former U.S. Secretary of State, Madeline
                     Albright, had identified Indonesia as one of four priority countries in light of its
                     ongoing transition to democracy and the country’s importance to the United
                     States. In addition, U.S. President George W. Bush is expected to continue to
                     support Indonesia in its efforts to build a strong democracy and market economy.

                     The current U.S. Government country strategy for Indonesia supports overall
                     funding of $130 million for fiscal years 2001 and 2002. As of February 15,
                     2001, USAID/Indonesia’s DG program obligations and expenditures for fiscal
                     years 1998 to 2001 totaled about $87 million and $54 million, respectively.
                     USAID programming decisions will be affected by a changing political situation.



Audit Objectives As part of its fiscal year 2001 audit plan, the Office of the Regional Inspector
                     General, Manila (RIG/Manila), audited USAID/Indonesia to answer the
                     following audit objectives:

                         •   What is the current objective and status of USAID/Indonesia’s
                             democracy program?

                         •   Has USAID/Indonesia expended funds on its democracy program and
                             monitored those expenditures in accordance with U.S. Government,
                             Agency and program objectives and guidelines?

                     The audit’s scope and methodology can be found in Appendix I.




Audit Findings                                                                                      4
What is the current objective and status of USAID/Indonesia’s democracy
program?

Three of USAID/Indonesia’s seven strategic objectives concern its democracy and
governance (DG) program. These three strategic objectives are intended to help
accomplish the following DG activities:

•   First, the Mission uses DG funding, along with Office of Transition Initiatives
    (OTI) funding, under the Mission’s Strategic Objective (SO) No. 1 –
    “Democratic Reforms Sustained and Deepened” – to help support democratic
    reforms that support democratic government and political processes. As of
    February 15, 2001, obligations and expenditures for this strategic objective for
    fiscal years 1998 to 2001 totaled about $66 million and $47.5 million,
    respectively.

•   Second, the Mission uses DG funding, along with OTI funding, under the
    Mission’s SO No. 2 – “Decentralized and Participatory Local Government”
    – to help the Government of Indonesia (GOI) establish a legal, regulatory and
    fiscal environment that enables local governments to be effective. Funding is
    intended to help local governments develop the capacities needed to manage
    resources and services effectively and to develop skills needed to engage
    citizen participation. As of February 15, 2001, obligations and expenditures
    for this strategic objective for fiscal years 1998 to 2001 totaled about $9.7
    million and $0.2 million, respectively.

•   Third, the Mission uses DG funding, along with OTI funding, under the
    Mission’s SO No. 7 – “Impact of Conflicts and Crisis Reduced” – to ensure that
    critical humanitarian needs are met and to alleviate existing and emerging
    conflicts, particularly in Aceh and Papua. This funding is also to develop local
    capacity to advance preventive policies and practices that will mitigate the
    impact of future conflicts. As of February 15, 2001, obligations and
    expenditures for this strategic objective for fiscal years 1998 to 2001 totaled
    about $11.3 million and $6.6 million, respectively.

USAID/Indonesia is continuing to implement its DG program activities
encompassed under these three strategic objectives. For example, the Mission is
sponsoring DG activities in high-risk areas (“hot spots”) in Indonesia such as
Aceh, Irian Jaya (Papua), Maluku and West Timor. However, there is some
uncertainty as to whether the strategic objectives are the same goals as those of
the Government of Indonesia. We believe that the Mission needs to enter into a
new Special Objective Agreement (SOAG)1 with the Government of Indonesia
in order to help set and meet its DG program objectives. We estimate that, along
with the normal operational problems associated with implementing the DG
program, the Mission and the other organizations it is sponsoring have incurred
additional costs of at least $233,000 because of the lack of a new SOAG.

1
  Although the Mission defines a SOAG as a “Special Objective Agreement,” ADS Chapter
350.4 defines a SOAG as “Strategic Objective Grant Agreement.”
                                                                                     5
Mission Needs to Sign New Special Objective
Agreement with the Government of Indonesia

USAID/Indonesia needs to sign a new Special Objective Agreement (SOAG) with
the Government of Indonesia (GOI) in order to help set and meet its DG program
objectives. According to ADS Chapter 350.3, USAID operating units, within their
delegated authorities, are responsible for preparing, negotiating, signing, and
implementing bilateral grants to further their strategic plans and management
contracts. The SOAG is the principal bilateral grant agreement used by USAID.

Existing SOAG is Outdated - The existing SOAG between USAID/Indonesia and
the GOI’s National Development Planning Agency was signed on May 12, 1999.
This agreement was intended to assist mainly with voter education and election
monitoring activities, for the then upcoming democratic elections. Under the
existing SOAG, the Mission and the host government agreed that funding would be
provided directly to governmental, non-governmental and private voluntary
organizations, and other entities working pursuant to a United Nations
Development Program-GOI Memorandum of Understanding (dated February 4,
1999). The SOAG made available funding of $50 million to be provided until
September 30, 2003, and an USAID Implementation Letter dated March 15, 2000,
was used to add Chemonics, its subcontractors, and a list of technical advisors.
(Appendices III and IV contain copies of the SOAG and the Implementation Letter,
respectively.)

While the May 1999 SOAG specified the efforts for the 1999 elections in
Indonesia, the agreement made reference to “Post-Election Support” in only one
“illustrative” paragraph. Now that the elections are over and a new government
is in place, the Mission does not have an active partner within the GOI to help
implement DG activities. For example, a new SOAG could help the Mission re-
assess the support of the GOI and help identify which activities the GOI is
currently interested in and thus willing to support.

Mission officials told us that they are aware of the need to enter into a new
SOAG with the GOI and stated that they have been exploring ways to do so.
However, they said that one problem they have is identifying the appropriate
Ministry for them to work with. Mission officials stated that they have done
extensive research on an appropriate host government partner and that research
continues despite the fact that the GOI frequently replaces its ministers. For
example, one Mission official said that the Ministry of Justice and Human Rights
has been considered as a suitable technical partner, but frequent changes in its
leadership have made it difficult to negotiate with this Ministry. In addition,
Mission officials stated that some GOI officials were reluctant to openly work
with U.S. Government officials at the present time. In spite of these difficulties,
Mission officials agreed that it might be helpful to develop a new SOAG. The
officials stated that they would document their efforts to obtain a new agreement
with the GOI.

                                                                              6
Problems Resulting From an Outdated SOAG - Despite the existence of the
current SOAG, both Mission officials and its partners have encountered
problems obtaining appropriate Indonesian visas and the benefits of tax and
duty-free status. For example, three of the Mission’s U.S. Personal Service
Contractors (PSCs) who worked with the DG program were provided a Type B
(business visa) by the GOI. Type B visa is valid for only 60 days. As a result,
these PSCs and their dependents had to leave Indonesia and travel to Singapore
every 60 days to renew their visas. Also, most of the Mission’s U.S. non-
governmental (NGO) partners, such as International Foundation for Election
Systems (IFES), Chemonics, National Democratic Institute (NDI), and
International Republican Institute (IRI), were experiencing significant problems
in obtaining appropriate Indonesian visas for their resident representatives in
Indonesia.

For example, IRI’s Director had to make 14 trips to Singapore (from October
1998 to September 2000) to renew her visa, and 7 other IRI expatriates had to
make trips to Singapore for a total of 35 trips during the period. NDI indicated
that 14 of its expatriate staff made a total of 34 trips to Singapore (from
December 1998 to October 2000) for the same purpose. According to an NDI
official, the visa problem has resulted in significant financial outlays to obtain
short-term visas for its long-term staff while waiting for the GOI to issue
appropriate visas. Based on the information provided by these four U.S. NGOs,
a total of $56,500 of USAID funds have been spent for travel to renew visas as
of October 2000. This cost does not include the significant cost of the traveler’s
time or the time of office staff who make the travel arrangements.

In addition, Chemonics’2 Vice President indicated in a May 31, 2000, letter to the
Mission Director that, without a special longer term “Dinas” visa3, Chemonics
expatriates could not obtain favorable hotel rates, buy tax-free vehicles, or provide
to schools required visas for their children. In the same letter, the official expressed
other concerns about the SOAG issue:

         Perhaps even more important, the lack of a SOAG exposes this
         highly sensitive project politically. Without official GOI sanction
         … those elements of Indonesian society with vested interests in
         maintaining the status quo and who object to the broadening of
         civic participation in democracy could easily challenge the right of
         the project to be operating in the country and threaten its closure.
         This could prove embarrassing to USAID, and would deprive local
         civil society organizations of the worthwhile services the project is
         designed to provide.


2
    Chemonics is currently the sole major contractor of USAID/Indonesia under
    the democracy and governance program.
3
    Indonesian “Dinas” visas are good for up to six months, can be extended, and are valid for
    multiple exit/re-entry.
                                                                                                 7
It is notable that while the existing SOAG provides “tax and duty-free status” to
USAID partner organizations, none of the four U.S. NGOs are acknowledged by
the GOI as a tax-exempt organization. These NGOs are, therefore, required to
pay duties and taxes for their rent, purchases, and importation of USAID-funded
goods and materials. For example, the GOI has not reimbursed IFES for $33,000
in Value Added Tax (VAT) on its purchases.

In addition, IFES has filed a claim for tax exemption for VAT amounting to
$143,000 on purchases for which IFES has not paid the Tax. The GOI tax office
does not recognize the current SOAG, indicating that IFES is not a tax-exempt
organization and must therefore pay VAT. According to an IFES official, the
organization’s staff spent a considerable amount of time dealing with tax issues.
IRI, on the other hand, indicated that their only significant tax issue related to the
rent for their office building. Because IRI could not present a tax exemption
letter from the GOI Tax Department, the amount of tax charged on their rental
agreement has accumulated together with the fines for the late payment.

The lack of a current SOAG has caused some USAID/Indonesia partner
organizations not to be able to obtain longer term visas for their staff or to
benefit from tax and duty-free status. These organizations must incur
unnecessary travel costs to renew visas, and must pay duties and taxes that may
not be refunded by the GOI. Once a new SOAG is signed, the Mission and the
organizations funded under its DG program should have a partner within the GOI
to provide assistance in obtaining all the benefits and privileges they are entitled
to receive.

Currently, there are a large number of USAID/Indonesia-funded organizations
implementing DG program activities. In the absence of a new SOAG, the
Mission does not have a partner within the GOI in setting and carrying out DG
program activities. A new SOAG could help the Mission re-assess the support of
the GOI and help identify which activities the GOI is currently interested in and
thus willing to support. Under the current circumstances, neither the Mission nor
its partner organizations have any real assurance that the activities they are
implementing have the support of the GOI.

To improve the implementation of the DG program, we are making the following
recommendation:

       Recommendation No. 1: We recommend that USAID/Indonesia:

       1.1     Provide a strategy, with target dates, for contacting
               appropriate parties within the Government of Indonesia to
               help set and meet its democracy and governance strategic
               objectives under a new Special Objective Agreement;

       1.2     Assist USAID/Indonesia-funded organizations, which are
               eligible under the Mission democracy and governance
               program, in filing claims with the Government of Indonesia to
                                                                                 8
               recover taxes and duties paid from which they were exempt,
               including about $176,000 identified in this audit report; and

       1.3     Ensure that taxes and duty-free recoveries received by
               USAID/Indonesia-funded organizations from the Government
               of Indonesia, under the democracy and governance program,
               are refunded to the Mission, as appropriate.


Has USAID/Indonesia expended funds on its democracy program and
monitored those expenditures in accordance with U.S. Government, Agency,
program objectives and guidelines?

USAID/Indonesia has generally expended funds on its democracy and
governance (DG) program and monitored those expenditures in accordance with
U.S. Government, Agency and program objectives and guidelines. However, in
reviewing awards made by the Mission to The Asia Foundation (TAF) and
Chemonics, we determined that there were two areas needing Mission attention.
These areas include: 1) the absence of a statutory clause in Mission DG
agreements restricting the use of funds and 2) the Mission’s ability to monitor
DG activities in high-risk areas.

The Mission uses a main grantee, TAF, and a main contractor, Chemonics, to
implement and manage many of its DG activities. TAF and Chemonics issue sub-
grants and are responsible for the day-to-day monitoring of activities throughout
Indonesia. The Mission, with its limited staff, provides general oversight to the DG
program. We reviewed grant awards made to TAF valued at about $24.6 million
and a contract award to Chemonics valued at about $27.4 million. We noted no
material exceptions in our limited testing of these awards.

Based on documents reviewed and testing performed, the audit found that the
Mission and its main implementing partners appear to be following USAID-issued
guidance for carrying out their monitoring responsibilities. For example, based on
review of trip reports, both TAF and Chemonics’ officials routinely travel to project
sites to monitor sub-grantees and their activities (except for high-risk areas as
discussed below). Furthermore, the Mission, TAF and Chemonics regularly
receive and review progress reports on DG activities.

The two areas needing management attention are discussed below. We are making
a recommendation with regard to the first area, the inclusion of a statutory clause in
mission DG agreements. However, we are not making a formal recommendation
regarding our concern over the Mission’s ability to monitor in high-risk areas.

Statutory Clause Should Be
Cited in Mission Agreements

USAID/Indonesia does not include reference to Section 116(e) of the Foreign
Assistance Act (FAA) of 1961, as amended, in its DG agreements. Section 116(e)
                                                                                 9
prohibits USAID funding from being used to influence the outcome of any election.
Agency guidance (ADS Chapter 201.3.3.4) requires USAID to manage its
programs and operations to comply with applicable legal restrictions. The guidance
also states that the Regional Legal Advisor (RLA) should determine whether
particular countries or activities are affected by legal restrictions and whether
particular waiver authorities may be exercised. USAID/Indonesia has not widely
disseminated information on this legal requirement because most Mission officials
were not aware of it. As a result, there is a potential for recipients of USAID-
funded DG activities to violate the law by using U.S. Government funds, directly or
indirectly, to influence the outcome of an election.

The U.S. Congress has included specific language in the FAA of 1961, at Section
116(e), to address the special concerns of Congress regarding programs and
activities that will encourage or promote increased adherence to civil and political
rights. We obtained a copy of Section 116(e) of the FAA from the Mission’s RLA.
In part, Section 116(e) states that no U.S. Government funds “may be used, directly
or indirectly, to influence the outcome of any election in any country.” According
to ADS Chapter 201.3.3.4, USAID is required to manage its programs and
operations to comply with applicable legal restrictions. As well, Chapter 201.3.3.4
states that RLAs should determine whether particular countries or activities are
affected by legal restrictions and whether particular waiver authorities may be
exercised, based on facts provided by operating units.

We reviewed a sample of 20 Mission DG agreements, and the restrictions of
Section 116(e) were not specifically mentioned in any of them. In 15 of the 20
agreements reviewed there was no reference about being impartial to all political
parties during an election or otherwise. In the remaining five agreements
reviewed, there was general language stating that funds should be provided to all
political parties on an impartial basis. Although this narrative language is
helpful to some extent, in our opinion, it falls short of the mark in providing
specific reference to the statutory requirement. Such language does not put
recipients on formal notice that it is not only desirable but also mandatory to
comply with the requirement because it is the law.

Mission officials told us that the general language included in some agreements is
sufficient because the agreements are legally binding documents and recipients
must comply with all agreement provisions. However, to clearly communicate
statutory restrictions on USAID funds, the Mission should include specific
language regarding Section 116(e) requirements. Without such language, some
recipients might violate the law and later claim to be unaware of the legal
requirements.

In response to our finding, a Mission official suggested that since we did not find
any violations of the law, there must not be a problem with compliance. This view,
in our opinion, is certainly not a proactive one. It is much better to make
reasonable attempts to ensure compliance beforehand rather than trying to correct
violations, inadvertent or otherwise, after the fact.

                                                                              10
We are not advocating that Section 116(e) be inserted in all agreements, since
some DG activities may have limited or no impact upon election activities.
However, since many of the Mission’s DG agreements are broadly worded in
terms of the objectives to be accomplished, it would be prudent to formally
advise recipients of USAID DG funds of the Section 116(e) legal requirement.
Determining which agreements should include the requirements could be jointly
decided by the Agreements Officer and the RLA.

The Mission has suggested that the additional workload would be too much for the
RLA’s office. One of the primary concerns raised by the Mission was that there
could be a bottleneck in that office and agreements could be held there pending
review. However, the RLA need not review all USAID agreements, only those
which may be subject to Section 116(e) restrictions. Failure to include the 116(e)
requirements in applicable agreements may lead to violations of U.S. law and,
potentially, to charges of U.S. Government interference in Indonesia’s internal
political affairs.

       Recommendation No. 2: We recommend that USAID/Indonesia:

       2.1     Require the Regional Legal Advisor, in conjunction with the
               Agreements Officer, to determine, based on facts provided by
               operating units, whether particular Mission funded
               democracy and governance agreements could be affected by
               legal restrictions; and

       2.2     Once determined applicable by the Regional Legal Advisor,
               include the requirements of Section 116(e) of the Foreign
               Assistance Act in relevant democracy and governance
               agreements.

Concerns Over the Ability to Monitor Democracy
and Governance Activities in High-Risk Areas

USAID/Indonesia has, as part of its DG program, attempted to help resolve
conflicts and crises in high-risk areas (“hot spots”) because Indonesia’s capacity
in the area of conflict resolution is limited. Acquiring the proper tools and
resources to successfully find and implement solutions for Indonesia’s complex
conflicts has proven a challenge for the Mission and its partners.

All recipients of USAID funds, whether they be non-profit organizations or
commercial contractors, are required to properly account for costs. According to
USAID’s Guidelines for Financial Audits Contracted by Foreign Recipients
(“Guidelines”) and the Office of Management and Budget’s (OMB) Circular A-
122, Cost Principles for Non-Profit Organizations, USAID funds expended by
recipients should be properly accounted for by the recipients. Circular A-122
establishes principles for determining costs of grants, contracts, and other
agreements with non-profit organizations. Part of the “General Principles” of the
Circular includes a determination on costs concerning whether they are
                                                                             11
allowable, reasonable, and allocable. As well, Federal Acquisition Regulation,
Part 31, on Contract Cost Principles and Procedures for contracts with
commercial organizations includes a determination on costs concerning whether
they are allowable, reasonable, and allocable.

USAID/Indonesia, through sub-grants awarded by TAF and Chemonics to other
non-governmental organizations, is sponsoring DG activities in high-risk areas in
Indonesia such as Aceh, Irian Jaya (Papua), Maluku and West Timor. However,
in some high-risk areas, security concerns have prevented responsible
organizations from monitoring USAID-funded DG activities.

Operating in High-Risk Areas Has Created Additional Challenges – TAF
officials told us that they have DG activities going on in high-risk areas such as
Aceh, Irian Jaya (Papua), and Maluku. The officials stated that they monitor DG
activities in these areas through telephone communication, e-mails, and written
reports. TAF does not have any contingency plans for monitoring DG activities
in high-risk areas and generally follows the Embassy Regional Security Office
(RSO) travel restrictions to high-risk areas. At the time of our visit in January
2001, the Mission’s principal DG liaison with TAF told us she had not visited
any of the TAF sub-grantees in high-risk areas. The official stated that she was
supposed to attend training in Aceh from January 25 to 27, 2001, but the RSO
would not grant clearance. Further, she noted that when TAF was informed that
USAID/Indonesia staff was not allowed to travel to Aceh, TAF decided not to
send any of its employees to the training.

Chemonics officials told us that they have focused their DG program in six high-
risk areas; East Java, West Java, West Papua, Aceh, North Sulawesi, and East
Kalimantan. These officials told us that their DG activities were focused on
providing grants, technical assistance and hiring contacts for special activity
funds. At the time of our meeting in October 2000, Chemonics officials said that
there were two grantees in Aceh that they could not visit to monitor DG activities
because of security concerns. On October 18, 2000, Chemonics asked the
Mission to intercede on its behalf with the Embassy RSO to obtain “special
consideration” in order for two of its staff to attend a workshop in Aceh.
Chemonics’ request was turned down by the RSO because the danger of
travelling to Aceh was seen as outweighing the benefits of being able to monitor,
through direct observation and assistance to the grantee, DG activities. Factored
into the decision was the matter of liability, should harm come to personnel who
travel to areas designated as dangerous by the RSO.

Difficulty in Verifying Documentation - As well, certified public accounting
(CPA) firm auditors, who were contracted to audit USAID funds expended by
recipients, have not been able to determine on some occasions whether costs
were allowable, reasonable and allocable to the contract in accordance with
appropriate guidance.

For example, a USAID/Indonesia grantee, Private Agencies Collaborating
Together, Inc. (PACT), asked the Mission’s permission to waive questioned costs
                                                                            12
               found by the CPA auditing firm reviewing one of its sub-grantees, Yayasan Putura
               Dewantara (YAPDA), located in North Aceh. In the letter to the USAID/Indonesia
               agreement officer, PACT noted that about $32,000 of unsubstantiated receipts were
               submitted by the sub-grantee in 1999. YAPDA had received a grant, lasting from
               May 1 to June 30, 1999, to conduct short-term election-related activities such as
               election monitoring training and election monitoring. PACT’s budget analysis and
               external audit findings raised questions about the validity of receipt signatures and
               the general pattern of disbursements during the period of YAPDA’s grant. Because
               of the ongoing security concerns in Aceh, most particularly in the Lhokseumawe
               area where YAPDA was based, neither PACT nor its CPA firm were able to travel
               to the region to confirm or disprove the audit findings.

               In addition, there was a similar situation with another USAID/Indonesia grantee,
               Yayasan Pengembangan Sumber Daya Manusia (YPSDM), that was
               implementing USAID sponsored DG activities in high-risk areas. During a
               recent audit of YPSDM, a CPA firm identified over $93,000 in expenditures that
               were considered not allowable or allocable. In responding to the auditors, the
               management of YPSDM noted that, due to security conditions in the former East
               Timor province and Maluku province, they were not able to provide supporting
               documentation for funds of about $44,000 disbursed to those provinces.
               YPSDM asked USAID/Indonesia to give these expenditures special
               consideration due to extenuating circumstances, and requested that the Mission
               not categorize the expenditures as “questioned costs.”

               The above instances raise concerns over the ability to monitor DG activities in
               certain high-risk areas. In our opinion, if the security conditions do not allow
               Mission/partner staff to make timely monitoring visits, USAID/Indonesia cannot
               adequately determine if DG programs are being properly implemented, or if
               USAID funds are being used as intended. While we are not making a formal
               recommendation at this time, we suggest that the Mission and its partners
               develop contingency plans for such instances. Such plans could include
               alternative monitoring arrangements or steps to temporarily suspend funding.




Management     In response to our draft report, USAID/Indonesia provided written comments
Comments and   that are included in their entirety as Appendix II. Based on the Mission’s
Our            comments, a management decision has been reached on all report
               recommendations—with Recommendation Nos. 1.3, 2.1 and 2.2 considered
Evaluation     closed upon issuance of this report. Recommendation Nos. 1.1 and 1.2 may be
               closed when the Mission provides evidence to USAID’s Office of Management
               Planning and Innovation that it has implemented the necessary actions.

               With respect to Recommendation No. 1.1, the Mission noted that it has been
               working diligently over the past year to negotiate a new strategic objective
                                                                                              13
agreement (SOAG) with the Government of Indonesia. The Mission also noted
that a new SOAG would not solve all the problems associated with taxes, visas
and the like. The Mission agreed to develop a plan for contacting parties to set
and meet the Mission’s DG objectives via a new SOAG.

Regarding Recommendation Nos. 1.2 and 1.3, the Mission stated that it has
assisted USAID-funded organizations with filing and retrieving taxes and duties
paid on exempted items. However, the Mission noted that it has never
reimbursed a USAID-funded partner for taxes and duties paid by the
organization.

Based on the Mission’s comments, Recommendation No. 1.3 is considered
closed. Recommendation Nos. 1.1 and 1.2 may be closed when the Mission
provides evidence to USAID’s Office of Management Planning and Innovation
that it has implemented the necessary actions.

In responding to Recommendation Nos. 2.1 and 2.2, the Mission noted that the
Regional Legal Advisor and the Agreements Officer have examined all DG grants
for Indonesia and East Timor and determined that while USAID is not required to
quote Foreign Assistance Act Section 116(e) verbatim in grants, the Mission may
do so. In addition, the Mission stated that it has included Section 116(e) in all new
DG grants for Indonesia and East Timor. Based on the Mission’s comments,
Recommendation Nos. 2.1 and 2.2 are considered closed.




                                                                                14
                                                                                     Appendix I


Scope and     Scope
Methodology
              We audited USAID/Indonesia’s democracy and governance (DG) program
              activities in accordance with generally accepted government auditing standards.
              We conducted the audit fieldwork in Jakarta, Indonesia from October 10 to
              November 3, 2000 and from January 21 to February 17, 2001. The audit focussed
              on contracts, grants and cooperative agreements made by USAID/Indonesia during
              the period of October 1, 1997 to September 30, 2000.

              In particular, we reviewed several agreements between USAID/Indonesia and two
              of its principal awardees, The Asia Foundation (TAF) and Chemonics. For
              example, we reviewed four grant agreements with TAF and a Chemonics contract
              entered into by the Mission. As of February 14, 2001, the four TAF agreements
              were valued at about $24.6 million with about $8.4 million having been expended,
              and the contract with Chemonics was valued at about $27.4 million with about $3.5
              million having been expended.

              In addition, we reviewed four draft audit reports prepared for four of TAF’s non-
              U.S. sub-grantees that expended $300,000 or more per fiscal year in USAID-
              funded awards.

              Methodology

              To accomplish our audit objectives, we met with USAID/Indonesia, American
              Embassy, TAF, Chemonics, and sub-grantee officials. We also contacted, by
              telephone, an official at the United Nations Development Program and met with
              the audit manager of Paul Hadiwinata, Hidajat & Rekan (a local certified public
              accounting firm) to discuss the audit of four TAF sub-grantees. Because of
              security concerns throughout many parts of Indonesia, we performed audit
              activities only in Jakarta. Therefore, our review was limited to assessing only some
              of the operations of TAF and Chemonics in Jakarta, Indonesia. The audit did not
              cover other recipients who received funding under the Mission’s DG program.

              In addition, we also examined Federal laws and regulations, USAID regulations
              and pertinent USAID/Indonesia DG documents, along with other tasks such as:

              •   Reviewed the Foreign Assistance Act of 1961 (as amended), Federal
                  Acquisition Regulation, Code of Federal Regulations, Office of Management
                  Budget Circulars A-122 and A-133, USAID Automated Data System Chapters,
                  USAID Contract Information Bulletins, and the Office of Inspector General
                  Guidelines for Financial Audits Contracted by Foreign Recipients.



                                                                                            15
•   Reviewed USAID/Indonesia planning and reporting documents, U.S. State
    Department cables, the Mission’s Results Review and Resource Request
    documents, and Mission contracts, grants, cooperative agreements, and
    progress reports with its partners.

•   Examined USAID/Indonesia and recipient financial reports, including
    obligating documents, budget reports, and vouchers.

•   Examined related evaluation reports and audit reports.

•   Interviewed key USAID/Indonesia, American Embassy, recipient and sub-
    recipient officials.




                                                                          16
                                                                                          Appendix II


Management
Comments

TO:           Bruce N. Boyer, RIG/Manila

FROM:         Desaix B. Myers III, Director, USAID/Indonesia

DATE:         September 7, 2001

SUBJECT:      Audit of USAID/Indonesia’s Democracy and Governance Program
              (Report No. 5-497-01-00X-P)


Thank you for the opportunity to comment on the subject report. This report is a vast improvement
over the initial draft. In fact, we accept the recommendations. However, there are a few remaining
inaccuracies in the text of the report that we have noted in the following comments.

Management Comments:

USAID/Indonesia accepts the recommendations set forth in this report. With the exception of
Recommendation No. 1.1, we have satisfied all the recommendations and request that no. 1.2, 1.3, 2.1
and 2.2 be closed with the issuance of the final report.

Recommendation No. 1.1: It should be noted that we have been working diligently over the past
year amidst grave political and economic instability to negotiate a new strategic objective agreement
(SOAG) with the Government of Indonesia (GOI). The effort to negotiate a new SOAG began long
before the auditors arrived. It is also important to note that a SOAG will not solve all the problems
associated with taxes, visas and the like. Other SO teams in the mission and other USG agencies and
departments with valid agreements have experienced similar problems with the GOI. Nevertheless,
as Recommendation No. 1.1 requires, we will develop a plan for contacting parties to set and meet
the mission’s DG objectives via a new SOAG.

Recommendation No.1.2: We have assisted USAID-funded organizations with filing and retrieving
taxes and duties paid on exempted items. We request that recommendation no. 1.2 be closed with the
issuance of this report.

Recommendation No. 1.3: USAID/Indonesia has never reimbursed a USAID-funded partner for
taxes and duties paid by the organization. If such an instance should ever arise, we would recover
those duties and taxes paid. We, therefore, request that recommendation no. 1.3 be closed with the
issuance of this report.

Recommendation No. 2.1: The RLA and the Agreement Officer have examined all DG grants for
Indonesia and East Timor and determined that while USAID is not required to quote FAA Section
                                                                                                17
116(e) verbatim in grants, we may do so. It is worthy to note that (1) there are no approved
mandatory or optional contract or grant clauses in the FAR, AIDAR or ADS pertaining to FAA
Section 116(e), (2) our former RLA approved language that paraphrased Section 116(e), (3) such
language was contained in all but one DG election related grant, (4) while DG partners and mission
staff may not have been able to cite FAA Section 116(e) as a source or quote its text verbatim, those
who work on elections and political party strengthening activities know and understand the principles
contained in the law, and (5) we are proud to note that neither we nor the auditors have ever found an
incidence where Section 116(e) was violated. We request that Recommendations No. 2.1 be closed
with the issuance of the final report

Recommendation No. 2.2: We have included FAA Section 116(e) in all new DG grants for
Indonesia and East Timor. We request that Recommendations No. 2.2 be closed with the issuance of
the final report.

Other Concerns: Despite the fact that we accept the recommendations, we find that the report still
contains errors, speculations and broad generalizations that are inappropriate for a professional audit
report. We note, for the record, three major misstatements of fact.

1. Audit Objectives (page 4): The report contains the following inaccurate statement:
                        “Because of security concerns throughout many parts of Indonesia, our audit
                        was limited to reviewing USAID/Indonesia’s democracy and governance
                        program in Jakarta, Indonesia. Therefore, our review was limited to assessing
                        only the operations of TAF and Chemonics in Jakarta, Indonesia.”
With the exception of the provinces of Aceh, the Maluku and West Papua, during the period in which
the auditors were in Jakarta there were no restrictions on travel in the remaining twenty-five
provinces of Indonesia. In fact, several members of the USAID staff traveled, without incidence, to
various parts of this vast archipelago during the period the auditors were in Jakarta. The
USAID/Indonesia Controller even offered to accompany the auditors on site visits to examine DG
activities and meet partners outside of Jakarta, including Yogyakarta. For reasons unbeknownst to
mission staff, the auditors declined all offers to travel outside of Jakarta. Even if travel were limited
to Jakarta, there was no reason to limit the review to TAF and Chemonics. USAID/Indonesia has a
myriad of local and international contractor and grantee partners working on the DG program with
offices in Jakarta. The auditors could have examined the operations of numerous DG partners.

2. Audit Findings (page 5): The second bullet states that $0 .2 million was obligated and expended in
fiscal year 2001 for Strategic Objective no. 2 entitled Decentralized Local Government. The actual
number is $10.2 million.

3. Operating in High-Risk Areas Has Created Additional Challenges (page 12): While it is true that
adequate on-site monitoring of activities in conflict-prone areas is challenging, USAID/Indonesia has
performed this task extremely well. USAID/Indonesia and partner staff members travel to conflict-
prone areas, as necessary, to conduct on-site activity monitoring visits. Permission is frequently
granted by the Regional Security Officer (RSO) to travel to Aceh, Maluku and West Papua. Where it
is impossible to travel to a particular area within a province (e.g. western sections of Aceh), due to
short-term problems, USAID staff members have made arrangements to meet implementing
counterparts at neutral, safer sites. Where it has become apparent that violence is likely to be long-
term and threatening to USAID staff and our implementing partners, we have reduced or curtailed
activities in that area. To date, there has never been a travel restriction imposed by the RSO on East
                                                                                                   18
Java, West Java, North Sulawesi or East Kalimantan, where we have several on-going activities and
routinely conduct site visits.




We, again, thank you for the opportunity to comment on this report.




Draft:scromer9/7/01

Clearances:
MCalavan, CPT (draft):9/7/01
KRomwall FIN (draft):9/7/01
Tstephens   (draft):9/7/01




                                                                                             19
                                                                           Appendix III

Copy of Special
Objective       Copy of the Special Objective Agreement between USAID/Indonesia and the
Agreement       Government of Indonesia (dated May 12, 1999).




                                      USAID GRANT AGREEMENT NO. SDI 497-0385




                         SPECIAL OBJECTIVE AGREEMENT

                                    BETWEEN THE

                              REPUBLIC OF INDONESTA

                                       AND THE

                            UNITED STATES OF AMERICA

                                          TO

              SUPPORT AND STRENGTHEN DEMOCRATIC INITIATIVES

                    AND ELECTORAL PROCESSES IN INDONESIA




 DATED: May 12, 1999




                                                                                  20
     This SPECIAL OBJECTIVE AGREEMENT, is entered into between the REPUBLIC OF
INDONESIA ("Grantee”) and the UNITED STATES OF AMERICA, acting through the U.S.
AGENCY FOR INTERNATIONAL DEVELOPMENT ("USAID”).

        WHEREAS, the Grantee and USAID (the "Parties") hereby express their commitment to the
goal of supporting and strengthening Democratic Initiatives and Electoral Processes in Indonesia as
described herein;

       WHEREAS, the Grantee and USAID hereby affirm their commitments and
understandings made pursuant to the Memorandum of Understanding between the Grantee and the
United Nations Development Programme (UNDP) on Technical Assistance for the Electoral Process
in Indonesia, dated February 4,1999 (the"UNDP-GOI Memorandum of Understanding');

WHEREAS, in order to focus and strengthen the efforts of the Parties in fulfilling these goals and
commitments,

       NOW, THEREFORE, the Parties hereby agree as follows:

       Article 1: Purpose

       The purpose of this Special Objective Agreement (the "Agreement'), is to set out the
understandings of the Parties about the Strategic Objective described below.

       Article 2: Special Objective

       Section 2.1. The Special Objective sought by this Agreement is to support Government of
Indonesia priorities to promote improved electoral systems, to strengthen civil society, and to support
democratic and political reforms (the "Objective).

        Section 2.2. Annex 1, Amplified Description. Annex 1, attached, amplifies the above
Objective. Within the limits of the above definition of the Objective, Annex I may be changed by
written agreement of the authorized representatives of the Parties without formal amendment of this
Agreement.

       Article 3: Contribution to the Agreement

        To help achieve the Objective set forth in this Agreement USAID, pursuant to the Foreign
Assistance Act of 1961, as amended, will make available an amount of approximately S50,000,000,
subject to the availability of funds to USAII) for this purpose. This funding will be provided directly
to government , non-governmental and private voluntary organizations and other entities working
pursuant to the UNDP-GOI Memorandum of Understanding and/or this Agreement.




                                                                                                  21
                                                   -2-
       Article 4: Completion Date

        The Completion Date, which is September 30, 2003, or such other date as the Parties may
agree to in writing without formal amendment of the Agreement, is the date by which the Parties
estimate that all the activities undertaken in furtherance of the Objective will be completed.

       Article 5: Special Covenants

       Section 5. 1. Tax and Duty Free Status

        The Grantee agrees to exempt the import, export, purchase, use or disposition of any
equipment or property financed, leased or imported with USAII) funding under this Agreement from
taxes, including Value Added Taxes, departure taxes, duties, and fees of whatever nature charged in
Indonesia.

       Section 5.2. Tax Free Salaries

       The Grantee agrees to exempt from income taxes and other national contributions levied
pursuant to the laws of Indonesia all individuals, except citizens and permanent residents of
Indonesia, who are employed (whether direct hire, contract grant or other arrangement) by USAID or
by any organization financed by USAID to perform work in connection with this Agreement.

       Section 5.3. Official Siatus of International Partner Organizations

        USAID will work with and finance a number of international partner organizations in
furtherance of the Objective of this Agreement. An illustrative list of these partners is included in
Annex 1.

       Section 5.4. Visas and Assignment Approvals

        The Grantee, in conjunction with the appropriate Government of Indonesia ministries and
offices, will ensure the prompt and timely approval and issuance of visas and assignment approvals
for individuals working for partner organizations receiving USAID financing in furtherance of this
Objective.

       Article 6: Miscellaneous

       Section 6.1. Implementation Letters

         Implementation letters will be issued under this Agreement from the date of this Agreement.
The Parties may use these Implementation Letters to confirm and record additional understandings
and commitments related to this Agreement. Implementation Letters may not be used to amend the
text of this Agreement, but can be used to record revisions or exceptions




                                                                                                   22
                                                 -3-

which are permitted by the Agreement including the revision of elements of the Amplified
Description set forth in Annex 1. Implementation Letters shall be binding on the Parties unless
revoked, modified, or superseded by subsequent Implementation Letters or amendments to this
Agreement.

       Section 6.2. Inspections and Audits

        The Grantee will afford authorized representatives of USAD) the opportunity at all reasonable
times to inspect the books, records, accounts and other documents maintained by the Grantee relating
to this Agreement.

       Section 6.3. Communications

        Any notice, request, document, or other communication submitted by either Party to the other
under this Agreement will be in writing or by fax, and will be deemed duly given or sent when
delivered to such Party at the following address:

To USAID:

The USAID/Indonesia Mission Director

Mail Address:
Office of the Mission Director
USAID
JI. Medan Merdeka Selatan No 3-5
Jakarta 10110, Indonesia

Fax:
Office of the Mission Director
021-380-6694

To the Grantee:

Deputy Chairman for Foreign Cooperation
Badan Perencanaan Pembangunan Nasional (BAPPENAS)

Mail Address:
BAPPENAS
J1. Taman Suropati 2
Gedung Utama
Jakarta, Indonesia

Fax:
Office of the Deputy Chairman for Foreign Cooperation
021-334215
                                                                                                  23
                                                 -4-

All such communications will be in English, unless the Parties Otherwise agree in writing. Other
addresses may be substituted for the above upon the giving of notice.

       Section 6.4. Representatives

        For all purposes relating to this Agreement, the Grantee will be represented by the individual
holding or acting in the office of the Deputy Chairman for Foreign Cooperation of BAPPENAS.
USAID will be represented by the individual holding or acting in the office of the Mission Director,
USAID/Indonesia. Each of whom, by written notice, may designate additional representatives for all
purposes other than signing formal amendments to the Agreement. The names of the representatives
of the Grantee will be provided to USAID, which may accept as duly authorized any instrument
signed by such representatives in implementation of this Agreement, until receipt of written notice of
revocation of their authority.

       Section 6.5. Standard Provisions Annex

       A Standard Provisions Annex is attached to and forms part of this Agreement. The Standard
Provisions are found in Annex 2.

       IN WITNESS WHEREOF, the Republic of Indonesia and the United States of America,
each acting through its duly authorized representative, have caused this Strategic Objective Grant
Agreement to be signed in their names and delivered as of the day and year first above written.


UNITED STATES OF AMERICA                                REPUBLIC 0F INDONESIA


Desaix Myers III /s/                                     Djunaedi Hadisumarto /s/
Mission Director                                    Vice Chairman/Chairman for
USAID/Indonesia                                     Inter-Ministerial Committee
                                                           BAPPENAS




                                                                                                 24
                                                ANNEX I

                      AMPLIFIED SPECIAL OBJECTIVE DESCRIPTION

             SUPPORT AND STRENGTHEN DEMOCRATIC INITIATIVES AND
                      ELECTORAL PROCESSES IN INDONESIA


I.     Objective

         The objective of this Special Objective Agreement titled "To Support and Strengthen
Democratic Initiatives and Electoral Processes in Indonesia" is to support Government of Indonesia
priorities to promote improved electoral systems, to strengthen civil society, and to support
democratic and political reforms (the "Objective"). This Annex provides an amplified description of
the Objective and contains an illustrative list of activities that further this Objective. Nothing in this
Annex shall be construed as amending any of the definitions or terms of the Agreement.

II.    Summary

        A free and fair election is vital to Indonesia's overall economic recovery, to the strengthening
of a responsive and representative government, and to long term respect for the rule of law. The
upcoming election is thus vital to Indonesia's future.

        USAID's election support program meets critical election needs identified by the Government
of Indonesia as being of highest priority. USAID's election support program is coordinated with the
UNDP under the Memorandum of Understanding between the United Nations Development
Programme and The Government of the Republic of Indonesia on Technical Assistance for the
Electoral Process in Indonesia, dated February 4,1999 (the "UNDP-GOI Memorandum of
Understanding”). The USAID-supported activities outlined below, in conjunction with the activities
of the UNDP, other international donors and the Government of Indonesia, are working to strengthen
election reforms and solidify a politically competitive democracy in Indonesia.

         Approximately $50 million in USAID funding over the next four years is designated to
support activities that further strengthen electoral processes and post- election democratic and
political reform. This funding will be provided directly by USAID to governmental, non-
governmental, private voluntary organizations, and other entities working in furtherance of this
Objective. USAID supports activities based on the Government of Indonesia's consent request,
priorities and relevant laws. All activities are conducted in an impartial, nonpartisan and accountable
manner that respect the sovereignty of Indonesia.




                                                                                                     25
III. Activity Priority Areas

        In direct response to the Government of Indonesia's request for assistance and as set forth in
Article 2, Section 1, subsections a-e of the UNDP-GOI Memorandum of Understanding, and to
further the Objective of this Agreement, USAID and its partners are providing support in the
following areas:

1. Strengthening Electoral Management Bodies
(Article 2, Section lb of the UNDP-GOI Memorandum of Understanding)

Election Administration: While respecting the independence and sovereignty of official election
institutions, USAD is providing assistance to the enormous task of election administration. Technical
specialists have been working directly with the General Elections Commission (KPU) and providing
assistance which supports the strengthening of election administration and management necessary to
successfully analyze and execute regulations and procedures related to the election process.
Assistance has been provided in the establishment of a Joint Operations/Media Center to serve as a
timely independent results verification mechanism and as a source of official voter education
information, the preparation of a national voter registration campaign, and the training of KPU poll
workers. Beneficiaries include the Government of Indonesia, the KPU and its associated entities,
parliament political parties, and civil society.

USAJD partners supporting this include but are not limited to: the International Foundation for
Electoral Systems (IFES), the National Democratic Institute (NDI), and the International Republican
Institute (IRI).

Political Party Development: In accordance with the UNDP-GOI Memorandum of Understanding
request for "support to political parties running in th@ elections" to be in the "form of education and
training among others in increasing ... the campaign process and instruction on principles of elections
systems," USAID supports skills training programs that help strengthen and develop all political
parties in Indonesia. All assistance is in the form of training that is technical, non-partisan and
impartial. It is hoped that this will result in increased political competition and improved
accountability and responsiveness of political parties. All training programs are offered uniformly to
the 48 registered parties.

• Over 140 Indonesian party leaders in party development and campaign skills, particularly at the
  regional levels.

• Over 40.parties, particularly the national leadership, have worked with USAID
partners in the areas of party development, membership recruitment, campaign skills,
communications, and issues of governance. A Resource Center is also available to all parties and the
media.




                                                                                                  26
USAID partners supporting this include but are not limited to: the National Democratic Institute
(NDI), and the International Republican Institute (IRI).

2. Building the Capacity for a National Programme for Voter Education Including the
Promotion of Public Awareness of the New Political
Laws (Article 2, Section 1c of the UNDP-GOI Memorandum of Understanding)

Voter Education/Election Information: USAID assistance supports voter education activities that
increase awareness, knowledge and participation in the election process through two approaches, a
people to people campaign through civil society groups and national television and radio campaigns.
Institutional capacity building, training, curricula and information dissemination, and technical
assistance are provided in order to increase voter awareness. Beneficiaries include public and private
Indonesian election- related organizations, inter-ethnic and inter-religious groups, mass media
organizations, and labor unions. Illustrative activities are summarized below.

•   Support, technical assistance, and training is being provided to a number of
    Indonesian organizations around election activities including a mass based voter education
    network involving over 100 small NGOs and a universitv affiliated clearinghouse on voter
    education information and material. Voter education is also being provided to inter-ethnic and
    inter-religious groups. In addition, a national survey on voter education needs was widely
    distributed and well received.

•   Support, technical assistance and training is being provided for voter registration and voter
    education in eighteen provinces. Those trained also instruct on democratic principles.

•   Recognizing the reach of mass media, USAID is also funding the production and
    broadcast of election and democracy related Public Service Announcements (PSAs). A
    significant majority of eligible voters will receive essential information on how to register and
    cast ballots as a result of USAID supported efforts. In addition, partners have conducted two
    national surveys on public awareness of and attitudes toward the upcoming elections and
    democracy.

USAID partners supporting this include but are not limited to: the National Democratic Institute
(NDI), and the International Republican Institute (IRI).

Election Information and Debate in the Press: USAID assistance supports the use of mass media
as a forum for election information exchange, analysis, and debate for the general public. Public
service programming, capacity building, technical assistance, journalist training, and equipment are
provided. Beneficiaries include media organizations, journalists and civil society.




                                                                                                    27
USAID partners supporting this include but are not limited to: the International Foundation for
Electoral Systems (IFES), InterNews, the National Democratic Institute (NDI), and the International
Republican Institute (IRI).

3. Supporting the Training of National Election Monitors and Their
   Deployment (Article 2, Section 1d of the UNDP-GOI Memorandum of Understanding)

Election Monitoring/Observation: Responding to the critical role of independent monitors, USAID
is coordinating with the UNDP to support Indonesian civil society NGOs and new university related
groups. USAID supports independent election monitoring activities necessary for creating an
environment that enables the elections to be conducted with minimum disruption and maximum
transparency. Assistance is provided in the form of institutional capacity building and training to
Election Monitoring Organizations (EMOs) throughout the country. These EMOs will work with
civil society groups country-wide to deploy an estimated 600,000 monitors on election day.
Technical assistance to these groups is helping coordinate and train monitors and facilitate a parallel
vote tabulation (PVT) effort. Training of political party poll monitors has also began in over 20
provinces.

USAII) partners supporting this include but are not limited to: the International Foundation for
Electoral Systems (IFES), the National Democratic Institute (NDI), and the International Republican
Institute (IRI).

4. Post-Election Support

Post-Election Illustrative Activities: USAID assistance will support follow-on activities in the
post-election period which provide training to elected leaders and political parties, training to
promote conflict resolution and reconciliation, as well as other support as appropriate to other
Government of Indonesia and non-governmental entities. Illustrative topics for post-election civic
education training and assistance may include understanding and accepting election results,
strengthening democratic structures and improving civic education curricula. To support post-
election conflict resolution and reconciliation, activities could include national dialogue and
reconciliation training. Other illustrative training activities could support strengthened participation
in local government and strengthened professional and responsible journalism, parliamentary support,
legal and judicial reform efforts and support for accountable and transparent government




                                                                                                  28
5. Supporting and Providing Logistical Assistance
    (Article 2, Section Id of the UNDP-GOI Memorandum of Understanding)

Monitoring and Management Assistance Support: Support is provided for the monitoring and
review of activities carried out under this Agreement to ensure their effectiveness in achieving the
Objective.

USAID partners supporting this include but are not limited to: Management Systems International
(MSI) and Development Alternatives Inc. (DAI).




                                                                                                  29
                                   USAID Partner Organizations


National Democratic Institute for International Affairs (NDI)

NDI is providing election related technical assistance to a) local election monitoring organizations
(EMOs) and b) political parties as two components of a larger program. Assistance to the three
largest domestic monitoring groups covers a number of technical areas, material development, and to
the Rector's Forum, in particular, for Parallel Vote Tabulation (PVT). Training to all political parties
aims to increase their campaign and governing capacities. NDI has also conducted a feasibility study
of an international monitoring program.

International Republican Institute (ERI)

IRI is providing training to political parties in a) campaign and governing skills and b) in party
pollwatching as part of a larger program. All political parties have been invited to attend these
trainings. IRI is also preparing over one million party pollwatcher training manuals. In conjunction
with IFES, IRI has recently completed a national poll on voter attitudes and awareness.

International Foundation for Election Systems (IFES)

IFES technical specialists have been working directly with the General Elections Commission (KPU)
particularly in the preparation of election regulations; with the establishment of a Joint
Operations/Media Center to serve as a timely independent results verification mechanism and as a
source of official voter education information; in the preparation of a national voter registration
campaign; with official KPU poll workers; and in the recent completion of a national poll on voter
attitudes and awareness.

InterNews

InterNews technical specialists are providing training in strengthened radio journalism to 50
Indonesian radio stations. Training areas includes information gathering, analysis, and source
verification as well as management and administration. Training is aimed at enhancing the quality
and objectivity of information provided by radio.




                                                                                                  30
           United States Agency for International Development (USAID) Assistance
                                              to
                             Election Activities in support of the
                        GOI/UNDP Memorandum of Understanding*

Targets in US $ Million
                                                            Component Targets

Electoral Management                                                2
Technical Assistance to Team-11, KPU
Resource Support to KPU
Pollworker Training
Operations/Media Centre

Independent Monitoring                                              7
Training of trainers
PVT
Technical Assistance to Monitoring Groups
Materials and Manuals
Election Day Subsistence for Monitors

Voter Education                                                    85
Technical Assistance to Civil Society
Technical to KPU for Official Voter Information
Materials and Manuals

Political Parties (In accordance with Annex 2 of                   25
GOI/UNDP Program Support Document)
Training of Party Poll Watching Agents
Training of Election Skills
Training of Post Election Governance Skills

Election Information and Press Debate                               3
Surveys
Polls
Election Update Newsletters
Print and Broadcast Media
Public Service Announcements

TOTAL ASSISTANCE                                                  $23

       *Activities listed here are illustrative examples.




                                                                                   31
                       Illustrative List of USAID Partner Organizations

International Republican Institute
SCHWARZ, Mary                      Program Director
JOHNSON, Timothy                   Consultant
ZARING, Noah                       Consultant

National Democratic Institute
BJORNLUND, Eric                   Program Director
GANEM Jennifer                    Program Deputy Director
LACHMANSINGH, Lawrence            Elections Monitoring Coordinator
BADEN, Robert                     Finance Manager
O'DRISCOLI, Kevin                 Consultant
KING, Blair                       Consultant

International Foundation for Elections Systems
MITCHELL, Gerald                   Program Director
VALENTINO, Hank                    Consultant
NOEL, Theophane                    Consultant
KAPLAN, Connie                     Consultant
BIRSEL, Katharine                  Consultant
CALERO, JayJay                     Consultant
HUNTER, Jessica                    Consultant

Internews
REEN, Kathleen                    Program Director
ROMAN, Steve                      Finance Manager

Management System International
TIMBERMAN, David                Consultant
DE LEUW, Petra                  Consultant

Development Alternatives Inc.
BECKER, Gerald                    Team Leader
SMITH, Steve                      Procurement Specialist
MALLY, Baidyau Umesh              Logistics Specialist
PIERCE, Laurie                    Regional Program Manager, Surabaya
GILLESPIE, Frank                  Regional Program Manager, Medan




                                                                          32
                                                                                                Appendix IV


SOAG           Copy of the Special Objective Agreement, Implementation Letter No. 1 (dated
Implementation March 15, 2000), between USAID/Indonesia and the Government of Indonesia.
Letter

            UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

                                                        Letter No.: II/208
                                                        March 15, 2000
 DR- Ir. Ceppie K. Sumadilaga
 Head, Bureau of Bilateral Economic Cooperation
 Badan Perencanaan Pembangunan Nasional (BAPPENAS)
 Jalan Taman Suropati 2, 3rd Floor
 Jakarta Pusat
 Subject:     USAJD-GOI Special Objective Agreement
              To Support and Strengthen Democratic Initiatives
             And Electoral Processes in Indonesia (No. 497-0385)
             Implementation Letter No. 1

 Dear Bapak Ceppie:

 In conformance with Section 6.1 of the Special Objective Agreement between the Republic of
 Indonesia and the United States of America to Support and Strengthen Democratic Initiatives
 and Electoral Processes in Indonesia, dated May 12, 1999, and following our meeting with you on
 January 19, 2000, I have the honor of presenting to you this Implementation Letter No. 1.

 The purpose of this Letter is to revise the Amplified Description set forth in Annex 1 of the
 Agreement to include Chemonics International, Inc. and its subcontractors, the Cooperative for
 Assistance and Relief Everywhere (CARE) and the International Foundation for Election
 Systems (IFES), among the USAID Partner Organizations supporting the Agreement. Therefore, the
 Amplified Description is revised to include the names of Chemonics International, Inc.,
 CARE, and IFES in all sections of the Amplified Description that refer to specific or illustrative
 partners. Chemonics International, Inc. and its subcontractors replace Management Systems
 International, whose support to the Agreement terminated December 14, 1999.

 We have attached a list of technical advisors as of March 14, 2000 (Attachment No. 1). This list
 includes approved technical advisors and additional technical advisors who are still awaiting
 SETKAB's approval, as shown in Attachment No. 2.

 Accordingly, Chemonics International, Inc., CARE, IFES and the additional technical advisors listed
 in the attachment are covered by Article 5 (Special Covenants) and Standard Provision B.4 of the
 Agreement and are entitled to the privileges as described therein, pertaining to tax-and duty-free
 status (Section 5. 1), tax free salaries (Section 5.2), the accordance of official status to international
 partner organizations (Section 5.3), and visas and assignment approvals (Section 5.4).

                                                                                                      33
                                                  2


As you requested, we have also attached a brief description of the 22 technical advisors approved by
SETKAB per letter No. KL.02.03/ANBP/0096 dated May 28, 1999 and additional Technical
Advisors (Attachment No. 2), a brief description on the role of CARE and IFES (Attachment No. 3),
and a report on the Special Objective Agreement to Support and Strengthen Democratic
Initiatives and Electoral Processes in Indonesia covering the period of May 1999 through end of
December 1999 (Attachment No. 4). Our next report to BAPPENAS will cover the period of January
1, 2000 through June 30, 2000, since our partners/grantees usually provide us their reports on a semi-
annual basis. We hope semi-annual reports are acceptable.

Your signature in the space below will formally record your acceptance of the contents of this
Implementation Letter.

Thank you for your cooperation and your support to the Special Objective Agreement.

                                                      Sincerely,

                                                          /s/
                                                      Desaix B. Myers
                                                      Director

Agreed:


DK Ir. Ceppie K Sumadilaga
BAPPENAS

cc.: Bapak A. Husen Adiwisastra, LL.M., SETKAB




                                                                                                 34
No.        Name of Contractors            Name of Institution                   Position            SETKAB Approval              Location
1     SCHWARZ, Mary               International Republican Inst.       Program Director           Pending              Jakarta
2     FEENEY, Scott               International Republican Inst.       Consultant                 Pending              Jakarta

3     BJORNLUND, Eric             National Democratic Inst.            Program Director           KL.02.03/ANBP/0096   Jakarta
4     FUYS, Andrew                National Democratic Inst.            Program Deputy Director    Pending              Jakarta
5     LACHMANSINGH, Stanley L.    National Democratic Inst.            Program Officer            KL.02.03/ANBP/0096   Jakarta
6     ARCHIBALD, Susan            National Democratic Inst.            Finance Manager            Pending              Jakarta
7     O’DRISCOLL, Kevin           National Democratic Inst.            Consultant                 KL.02.03/ANBP/0096   Jakarta
8     KING, Blair                 National Democratic Inst.            Consultant                 KL.02.03/ANBP/0096   Jakarta
9     MORLEY, Kenneth V.          National Democratic Inst.            Program Officer            Pending              Jakarta
10    MAJORS, Alison E.           National Democratic Inst.            Finance Manager            Pending              Jakarta
11    ELLIS, Andrew               National Democratic Inst.            Consultant                 Pending              Jakarta
12    WOLFF, Sherrie              National Democratic Inst.            Consultant                 Pending              Jakarta
13    VIDOS, Tibor                National Democratic Inst.            Consultant                 Pending              Jakarta

14    WALL, Alan                  International Foundation for Elect   Program Manager            Pending              Jakarta
15    VALENTINO, Henry            International Foundation for Elect   Consultant                 KL.02.03/ANBP/0096   Jakarta
16    BIRSEL, Katherine Suheyla   International Foundation for Elect   Consultant                 KL.02.03/ANBP/0096   Jakarta


17    REEN, Kathleen              Internews                            Program Manager            KL.02.03/ANBP/0096   Jakarta
18    KUSUMAH, Bella              Internews                            Consultant                 Pending              Jakarta
19    REYNOLDS, Imelda            Internews                            Consultant                 Pending              Jakarta
20    ALLOWAY, Lance              Internews                            Fin/Operation Manager      Pending              Jakarta
21    SALAJAN, Horea              Internews                            Technical Director         Pending              Jakarta


22    BECKER, Gerald F.           Development Alternatives Inc.        Country Manager            KL.02.03/ANBP/0096   Jakarta
23    SMITH, Steven A.            Development Alternatives Inc.        Senior Program Manager     KL.02.03/ANBP/0096   Jakarta
24    PIERCE, Laurie              Development Alternatives Inc.        Regional Program Manager   KL.02.03/ANBP/0096   Surabaya
                                                                                                                                            1
No.        Name of Contractors          Name of Institution                Position               SETKAB Approval              Location
25    KIRWEN, Erika              Development Alternatives Inc.   Country Program Manager        Pending              Jakarta


26    DE LEUW, Petra             Robert F. Kennedy Mem. Center   Consultant                     KL.02.03/ANBP/0096   Jakarta
27    HARRIS, Peter              Chemonics International, Inc.   Chief of Party                 Pending              Jakarta
28    SIMON, Jonathan            Chemonics International, Inc.   Deputy Chief of Party          Pending              Jakarta
29    HOLLOWAY, Richard          Chemonics International, Inc.   Grant Manager                  Pending              Jakarta
30    ROSALIK, Linda             Chemonics International, Inc.   Monitoring and Eval. Spec.     Pending              Jakarta
31    GIBNEY, Glenn              Chemonics International, Inc.   Training and Facilication Sp   Pending              Jakarta


32    FARLEY, Joanne             Tricle-Up Program               Team Leader                    Pending              U.S.
33    McEWAN, Patricia           Trickle-Up Program              Consultant                     Pending              Jayapura




                                                                                                                                          2
